<html>
<title> - OVERSIGHT HEARING ON THE LIBRARY OF CONGRESS: CURRENT ISSUES IN LIBRARY MANAGEMENT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  OVERSIGHT HEARING ON THE LIBRARY OF 
                  CONGRESS: CURRENT ISSUES IN LIBRARY 
                               MANAGEMENT 

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, OCTOBER 24, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                     U.S. GOVERNMENT PRINTING OFFICE

40-620 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
































                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALES, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


OVERSIGHT HEARING ON THE LIBRARY OF CONGRESS: CURRENT ISSUES IN LIBRARY 
                               MANAGEMENT

                              ----------                              


                      WEDNESDAY, OCTOBER 24, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:08 a.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) Presiding.
    Present: Representatives Brady, Ehlers, Lungren, and 
McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Michael 
Harrison, Professional Staff; Khalil Abboud, Professional 
Staff; Matt Pinkus, Professional Staff/Parliamentarian; Kyle 
Anderson, Press Director; Kristin McCowan, Chief Legislative 
Clerk; Matthew DeFreitas, Staff Assistant; Fred Hay, Minority 
General Counsel; Bryan T. Dorsey, Minority Professional Staff; 
Katie Ryan, Minority Professional Staff; and Salley Collins, 
Minority Press Secretary.
    The Chairman. I would like to call the Committee on House 
Administration to order and thank everyone for being here and 
wish everyone a good morning.
    We are convened this morning to continue our oversight on 
the management of the Library of Congress. Today, we will focus 
on three important issues facing the Library: inventory of the 
collection, cataloging, and the status of the Law Library.
    As the only institution of its type, the Library of 
Congress is unique. It is the largest repository of books, 
films, photography, maps, music and priceless artifacts in the 
history of the world. It is the premier destination for 
researchers, both nationally and internationally. The Library 
is the research wing of the U.S. Congress, providing 
information and guidance daily to Members and staff alike.
    A collection of this size, however, can be both a blessing 
and a curse. While an invaluable amount of the world's 
knowledge is stored at the Library of Congress, keeping track 
of this precious collection has proven difficult. Approximately 
20 percent of the Library's collection has been inventoried, 
while the balance has not.
    The Library of Congress also provides official tools for 
other libraries throughout the Nation. Before domination by the 
Internet, research was done at libraries, through card 
catalogs, and the Library of Congress provided the basic 
information for card catalogs across the country. While the 
digital revolution has caused a steep decline in manual 
research, the art of cataloging is still integral to library 
science. Although the technology changes, the need to distill 
essential information for researchers remains. Implementing and 
developing new strategies for cataloging in an ever-changing 
environment must remain a top priority for the Library.
    Finally, the Law Library of Congress is also relied upon by 
lawyers, judges, law students and researchers throughout the 
Nation. It serves as the first stop for research for the United 
States Supreme Court. In the past, it has provided a 
comprehensive collection of legal materials to support 
historical and current legal analysis. But recent budget limits 
have led to cutbacks in its collections and in the reference 
staff that assists its users. We must ensure that the Law 
Library continues to serve as the reference of record for legal 
research.
    I look forward to the testimony of the witnesses on these 
issues.
    And I would like to recognize the ranking member, Mr. 
Ehlers, for any comments that he would like to make.
    [The statement of the Chairman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, I would like to thank you for calling today's 
hearing. It is a very important issue. It is not the type that 
draws headlines, but it is essential to the perpetuation of the 
Library. The successful information of Library operations is 
truly a bipartisan interest, and I am thankful for this 
opportunity to join with you to work together on this important 
matter.
    I would also like to thank each of our witnesses for 
joining us today, as we discuss the current and future state of 
operations within the Library of Congress.
    There are fundamentally three operational goals the Library 
must have in order to achieve its mission of serving the 
Congress while preserving a universal collection of knowledge 
and creativity for future generations.
    First, the Library must ensure the vigilant protection of 
the Library and its inventory through effective security 
protocols. Former House Administration Chairman Bill Thomas was 
instrumental in the creation of the Library's security plan, 
which provided a foundation for many of the Library's current 
safeguards against criminal activity. Several security 
measures, including metal detectors at the entrances and exits 
of the Library, the closed stack system, security cameras and 
Library of Congress Police inspections, were successfully 
implemented over the past several years. While I am hopeful 
that additional measures will be put in place to prevent 
further theft of its inventory, I am pleased that the Library's 
focus on securing its assets has created increased confidence 
that the institution is being protected from criminal activity.
    So it is one thing to worry about criminal activity, but 
there is also a matter of concern about sloppiness. I am not 
accusing the Library of that, but I certainly accuse a lot of 
your patrons of that, after having seen some of them.
    The Library has also made tremendous progress in the area 
of digital preservation of materials, both through digital 
reproduction of its existing inventory and in its collection of 
digital content for preservation purposes. And the Library is 
certainly to be commended for this.
    In digitally reproducing its existing inventory, the 
Library is leveraging the latest technology to capture 
materials digitally before the natural acidification process or 
other deterioration takes place to ensure that its treasures 
will be preserved for generations to come.
    The Library's preservation of digital content involves 
identifying and collecting at-risk digital materials, creating 
a national network of partners working together to preserve 
digital content, and developing technical tools and services 
for preservation. And I commend the Library for all their good 
work in this area.
    While these strides in securing and preserving the 
Library's materials are crucial for future patrons of the 
institution, there is still much work to be done in the area of 
inventory management. The Library's own Inspector General has 
found that at least 17 percent of the Library's general 
collection cannot be located. When nearly two out of 10 items 
in the Library's most often used collection are unaccounted 
for, we must demand answers where these items are and why they 
have not been captured in the Library's efforts to catalog its 
items.
    Another area of concern is the failure of administrators to 
complete a comprehensive inventory of the Library's items. The 
Baseline Inventory Program started in 2002, and now, 5 years 
later, only 20 percent of the project has been completed.
    This is particularly troublesome given the pending merger 
between the LOC Police and the Capitol Police. A bill that 
approves the merger between the Library of Congress Police 
force and the United States Capitol Police force will soon come 
before this panel for a markup. This merger represents a new 
era of security for the Library and an opportunity to put in 
place even tighter inventory controls.
    To measure the impact of changes resulting from the merger, 
a complete inventory of all the Library assets is essential. 
With a thousand new items being shelved each day by Library 
employees, this is a problem that is growing rapidly. Without a 
completed inventory, the Nation's most prestigious library is 
in danger of becoming little more than a neglected storage 
facility, rather than the world's standard-setter for best 
practices in collections administration.
    I am eager to hear from our witnesses as to what plans are 
in place to assail this growing threat.
    And let me also say publicly the same thing I said to you 
privately: You might be well-advised to consult with Wal-Mart, 
Target, other major chains. They certainly keep track of as 
many items of inventory and manage to do it successfully every 
day and make money while doing it. That might be a good model 
to follow.
    I thank our witnesses for joining us today. I welcome your 
testimony. God bless you in your important work, and we hope we 
can continue to work well together.
    Thank you.
    [The statement of Mr. Ehlers follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you.
    Any other members of the committee that would like to make 
a statement?
    Hearing none, thanks.
    Our first witness is Dr. James Billington.
    And I would like to thank you for showing up today. I 
understand you have your wingman and wingwoman here, Dr. Marcum 
and Dr. Medina, for purposes of helping us with any questions. 
And we thank them also.
    I understand you are celebrating your 20th year as 
Librarian of Congress.
    During his tenure at the Library of Congress, the 
collection has expanded by more than 50 million items. Since 
1987, Dr. Billington's first year as Librarian of Congress, the 
Library has raised more than $322 million in private 
contributions and in-kind gifts to supplement federally 
appropriated funds.
    We welcome your testimony today. We do have a 5-minute 
clock because we have another large panel, and we would like to 
get this done before we have to run back and forth to votes. So 
we do thank you all for being here.
    And now we recognize Dr. James H. Billington.

 STATEMENT OF MR. JAMES H. BILLINGTON, LIBRARIAN OF CONGRESS, 
    LIBRARY OF CONGRESS; ACCOMPANIED BY MS. DEANNA MARCUM, 
ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES, LIBRARY OF CONGRESS, 
AND MR. RUBENS MEDINA, LIBRARIAN, LAW LIBRARY OF THE LIBRARY OF 
                            CONGRESS

    Mr. Billington. Thank you, Chairman Brady, Mr. Ehlers, 
members of the committee. We are glad to have a chance to 
appear before you to discuss the Library's inventory, 
management and the Law Library collections.
    Accompanying me is Dr. Deanna Marcum, associate librarian 
for library services, and Dr. Rubens Medina, the law librarian 
of Congress. Each will speak briefly after my remarks. I have 
asked them to comment specifically on the article that appeared 
in this morning's Washington Post about so-called missing 
collections and on the testimony that has been submitted by 
outside witnesses without consultation with the Library but 
which was made available to us last night. So I would like to 
set the record straight, which Dr. Marcum will proceed to do, 
with updated and more accurate information.
    The Congress of the United States has been the greatest 
patron of the Library in human history, preserving far more of 
the world's knowledge and America's creativity than any other 
institution. Our collections are in almost every language and 
format. They total nearly 135 million physical items and 229 
terabytes of stored digital material.
    But we are a working library, not a storehouse of 
information to be locked down. Our mandate is to provide direct 
public access, often on a circulating basis, to our 
collections. And this distinguishes us from most museums and 
other cultural institutions and requires a different approach 
to assessing what we hold and how to protect it.
    Our challenge was, and is, to maximize both access and 
security and to balance these equally important but often 
competing imperatives. Early in my tenure, we developed an 
integrated plan to secure the collections based on three 
components: physical security, bibliographic and inventory 
controls, and physical preservation.
    I could go through the history here, but let me shorten it 
and just say that we developed a number of security protocols. 
In 1997, a Library of Congress security plan defined the threat 
to the collections using a five-tiered framework of risk of 
importance in our collections and created a system of physical 
security controls--which Mr. Ehlers has already mentioned, to 
some extent. Since then, we have further refined our practices 
and now operate under a strategic plan for safeguarding the 
collections shared with and approved by this committee, with 
goals, objectives and performance measures.
    Protecting the collections requires a policing function, 
bibliographic and inventory controls, and state-of-the-art 
preservation treatment.
    Inventory efforts have no precedent in the world library 
community for a collection of this size and complexity. I am 
not aware of any other major research library or similar 
cultural institution that has even attempted to completely 
inventory its collections on anything like this scale because 
of the inherent difficulties and cost. The cost would be 
astronomical for a collection of this size, shelved on 615 
miles of shelving and, as an ultimate inventory should cover 
every moment and stage of an item's life cycle during its 
entrance and usage in the Library.
    We are now supplementing traditional methods of inventory, 
which have been in effect, by inventorying materials when they 
are moved from one point in the life cycle to another, such as 
when a congressional staff member borrows a book that has not 
yet been barcoded. This supplementary use-driven method of 
inventory means that item holdings are added every time a 
previously unrecorded item is retrieved for use or moved to 
another location.
    A successful recent example of the use-driven technique is 
the examination we have made of the 6.2 million items in our 
Moving Image and Sound Recording Collections in preparation for 
relocating them at the new, state-of-the-art Packard campus in 
Culpeper, Virginia. Lessons learned in this successful process 
will help us shape broader inventory practices in the future.
    Our security office conducts inspections of the 
collections, and our Inspector General independently performs 
regular reviews. They have found no significant deficiencies in 
our safeguards. We have had no known instances of theft from 
the collections since the 1990s, when I implemented our 
expanded collection security protocols. The Library of Congress 
collections security program has been viewed as a model for 
some time now by a number of national and international 
cultural institutions.
    You asked also for my comments on the state of the 
Library's law collections. As you know, the top priority of the 
Law Library is service to Congress, using the largest 
collection of authoritative legal sources in the world, 
including more than 2.5 million volumes and almost 134,000 
digital items.
    The Law Library's goal is the same as the Library as a 
whole, namely to continue to add to its collections, keeping 
them up-to-date without subtracting. Legal collections must 
provide a complete cumulative record, up-to-date, to be useful.
    The Law Library contains a complete record of American law 
and unparalleled foreign and international law materials. 
Because, for instance, we hold the largest collection of Afghan 
laws that exist in the world today, the Law Library was able to 
locate a missing portion of Afghanistan's traditional law that 
was destroyed by the Taliban, which was unavailable anywhere 
else in the world, and has been restored for post-Taliban 
Afghanistan usage.
    As the Law Library celebrates its 175th anniversary this 
year, it faces growing obstacles to keeping its collections 
current because of flat appropriations, declining rate of the 
dollar, and steep price increases by legal publishers. That 
affects, by the way, right across the Library as well. For the 
first time, the Law Library has reluctantly begun canceling 
$200,000 worth of subscriptions.
    As the Librarian of Congress, I have a continuing, high-
priority responsibility to safeguard the collections and to 
sustain them. And we will continue to approach the 
bibliographic and inventory controls as critical components of 
our overall collection security program.
    I would be happy to answer any questions, but I think you 
want to hear, perhaps, also, from Dr. Marcum and from Dr. 
Medina.
    Thank you, Mr. Chairman, for this opportunity.
    [The statement of Mr. Billington follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. You are welcome.
    Sure, Dr. Marcum.
    Ms. Marcum. Thank you.
    Chairman Brady, Mr. Ehlers, members of the committee, until 
I saw this morning's Washington Post headline, I was prepared 
to talk solely about the progress we have made on the Baseline 
Inventory Program. In response to the headline and in response 
to the testimony that has been submitted by the American 
Library Association, I am compelled to talk about broader 
issues.
    First, I would address Inspector General Karl Schornagel's 
report of March 13, 2007, the preliminary ``Survey of 
Collections Access, Loan and Management Division Service.'' 
That was the basis of the article in the Post this morning.
    What was not included in the article were these sentences 
from the executive summary, in which the Inspector General 
says, and I quote, ``We performed a survey of the material 
retrieval service provided by Collections Management. We 
initiated this project to determine if the division efficiently 
and effectively responds to requests to retrieve collection 
items.'' He concludes, and, again, I quote, ``We did not become 
aware of any material weaknesses in Collections Management 
operations during our survey and concluded that further audit 
work on this project is not necessary at this time. Our survey 
indicated that Collections Management is providing timely and 
accurate retrieval service, especially considering the volume 
of material it handles and the size of the Library's general 
collections.''
    Today's article did not correctly interpret the IG's audit 
report. The headline's misleading reference to 17 percent is 
not a number reflecting books that are missing. As the IG 
report states, once we have identified that a book is not where 
we expect it to be, the more intensive search results in 
finding the item in all but about 10 percent of the time. And I 
would note, for the committee's information, that the not-on-
shelf rate for the Library has been cut in half over the past 
several years.
    I want to assure the committee that we take our 
responsibility for stewardship very seriously, and we are 
working on the Baseline Inventory Program that the Congress 
funded beginning in 2002. That name, ``Baseline Inventory 
Program,'' sounds unexciting, but the program is critical. It 
enables us to identify what we actually have on our shelves at 
any given time.
    This program was begun at a time when we were pulling all 
of the separate divisions' catalogs into a single, online 
public access catalog. For this catalog, we had to combine 
bibliographic descriptions, which are used by libraries 
worldwide, with descriptions from our manual card files. Only 
then could online users identify items that we hold, determine 
the formats in which those items exists, and determine the 
items' locations. This effort has no precedent among large 
research libraries. It helped us keep track of our collections 
and give users more accessible information about our holdings.
    The Library of Congress is not like a commercial warehouse 
that can close for a few days to take an inventory. New 
materials come to us constantly, roughly 10,000 items per day. 
Therefore, controlling our inventory is not simply a project 
that we can complete, but it is a continuous, ongoing core 
activity.
    In the Baseline Inventory Program, as of June 2007, we had 
inventoried 2.9 million books and journals. And, as you noted, 
that is about 20 percent of the general collections. To these 
items, we have added nearly 2 million volumes that we 
inventoried to be moved to Fort Meade and 6.2 million 
audiovisual collections that we moved to our new Packard campus 
in Culpeper, Virginia. Additionally, members of our collections 
format divisions have inventoried, as a separate activity, many 
of the special collections.
    Now we have begun to implement recommendations made by our 
Strategic Planning Working Group. The most important is to 
continue our initial sequential inventory but to supplement it 
with use-driven inventory controls for materials in special 
format collections and materials moved to new locations. To 
carry out the working group's additional recommendations, we 
will need to add staff and financial resources over the next 18 
to 24 months.
    In strategic planning for the Library Services Service 
Unit, my management team is now weighing recommendations from 
all of the working groups in light of available resources and 
future priorities. Many pressing core activities still need 
funding, such as cataloging for the digital information era, 
about which the American Library Association will appeal to you 
shortly, because so many libraries depend on our leadership in 
cataloging.
    You will also hear from ALA that the Library has been less 
cooperative than it once was and that it is reducing the number 
of its catalogers. Please allow me to clarify the facts.
    The Library of Congress works with 694 other libraries in 
its Program for Cooperative Cataloging. This is a program we 
both staff and support. We participate in literally dozens of 
committees and organizations that collaboratively set 
cataloging policies.
    In addition, after ALA complained about a decision that the 
Library made to streamline its cataloging processes by not 
creating series authority records, I responded by forming a 
Working Group on the Future of Bibliographic Control. I invited 
ALA to appoint three members to this group. It did, and joined 
representatives from all of the other major library 
associations on this project. The group has held open hearings 
in all regions of the country, including ALA headquarters in 
Chicago. We maintain a Web site for this project so that 
anyone, from any part of the country or, indeed, any part of 
the world, can comment both on the papers that are forming the 
working group's deliberations and the process.
    The Chairman. Excuse me. We will be voting pretty soon. 
Could you summarize a little bit? We will have Mr. Medina 
testify, and then we will be called for a vote and will come 
back and have some questions.
    Ms. Marcum. All right. Okay.
    Let me just say that, in terms of cataloging productivity, 
even though we have reduced the number of catalogers from 650 
in 1987 to 400 today, in the late 1980s we were cataloging 
200,000 books a year and today we are cataloging 363,000 books 
a year. Add to that, we are adding table-of-contents 
information and, in cases where we can, full text to the 
bibliographic record.
    So we are trying to meet all the needs with existing staff 
by streamlining and finding imaginative solutions. Inventory 
control is especially pressing because the special funding for 
the project runs out after 1 year. Support for this program 
enables us to keep track of our valuable holdings in a way that 
also makes it easier for millions of students, scholars and 
others across the country to find the material they need.
    Thank you for this opportunity to speak to you today.
    The Chairman. Thank you.
    Mr. Medina.
    Mr. Medina. Thank you, Mr. Chairman.
    Chairman Brady, Mr. Ehlers, members of the committee, the 
Law Library's top priority has always been to respond to 
congressional needs for legal information--national, foreign 
and international.
    The need for access to foreign and comparative law has 
never been greater or more immediate, as demonstrated by the 
interest of Congress in their request for studies, as well as 
the requests we get from the legal and business community. At 
the same time, the questions are increasingly more complex and 
the sources more abundant than ever before. In this 
environment, the Law Library is challenged to meet rising 
expectations. These expectations include the capability to have 
immediately at hand current and complete legal information.
    To meet these challenges, the Law Library has launched an 
initiative to take advantage of appropriate technology to gain 
timely access and make available critical primary sources of 
law in an authoritative form. The Global Legal Information 
Network is a cooperative effort linking together the 
legislatures of the world to provide mutual access to laws, 
regulations, court decisions and related legal materials.
    By working collaboratively with national legislatures or 
their designated agencies, we are ensuring that information in 
the system is of the highest possible quality, in contrast to a 
great deal of the content available on the Internet, which is 
of questionable origin and authenticity.
    This system holds great promise for the future, as more 
countries join each year and the system grows to become a 
comprehensive, unparalleled collection of global legal 
information. We appreciate the Congress' support for GLIN over 
the last 5 years and hope we can enjoy your continued support.
    The Law Library has also just completed a major upgrade of 
its Web site to deliver legal content to Congress and the 
Nation. This site includes the Global Legal Monitor, a monthly 
online publication offering highlights of legal developments 
from countries around the world that was launched by the Law 
Library in 2006. In addition, we offer studies on current legal 
topics, such as the judicial crisis in Pakistan and the trial 
of Saddam Hussein.
    We are also digitizing the Law Library's collections not 
available elsewhere online, including approximately 70,000 
volumes of congressional hearings that will be made available 
through GLIN, THOMAS, and the LIS. We are starting with those 
covering immigration, the national census and freedom of 
information.
    The availability of more digital legal sources has not, 
however, replaced print sources. In fact, we are faced with an 
increase in both media. The key to the future is to 
successfully integrate all print and media collections to allow 
users the ability to seamlessly find high-quality information 
that is customized to their particular needs. Law libraries 
face some particular obstacles, such as the need to continue to 
collect laws and other regulatory publications in their 
official form, which is still print.
    Through digital means, the Library can make its collection 
accessible to the entire world. And with that accessibility 
comes demand for services, as well. Last fiscal year, 
approximately 20 percent of the Law Library's online inquiries 
came from countries other than the U.S.
    In making this material available globally, we work, for 
example, with the House Democracy Assistance Commission, as 
they assist parliaments of new democracies for the purpose of 
strengthening their parliamentary infrastructure. Countries 
with access to law and other information, as we know, are more 
likely to build strong democracies based on the rule of law.
    This year, the Law Library celebrates its 175th anniversary 
as the oldest separate department of the Library of Congress. 
We have been celebrating this milestone with programs featuring 
legal scholars discussing current issues, national security and 
the rule of law, effective assistance of counsel. And I invite 
you and the members of this committee to join us for these 
lively and timely programs.
    Mr. Chairman, Mr. Ehlers, I thank you for the opportunity 
to highlight new developments at the Law Library of Congress. 
And my colleagues and I would be, I am sure, happy to answer 
any questions. Thank you.
    The Chairman. Thank you.
    We do have a vote going on, but Mr. Lungren probably has to 
leave, so I will allow him to ask a question of the panel.
    Mr. Lungren. Thank you very much, Mr. Chairman. I 
appreciate that.
    You know, I am one of those that brags on the Library of 
Congress, and I think it is one of the great institutions. But 
I must tell you, I am concerned about what I read in The 
Washington Post. And what I understand is we started with the 
17 percent. Then they found 4 percent. And now you tell us, Dr. 
Marcum, that actually the loss is only 10 percent, if I 
understand your testimony correctly.
    With all the great things the Library is doing and that we 
take great pride in, that is still a concern for us, as Members 
here, and for our constituents, as well.
    I would like to ask two questions. One is that, in both the 
Inspector General's 2002 March report, collection security 
audit, and the March 2007 survey of collections, it cites that 
one of the major deficiencies in the Library's inventory 
management is the continued use of paper call slips by users to 
request items in reading rooms. It is not tracked within the 
integrated Library system.
    The thing that jumps out at me is this was suggested in 
2002; we then see the report in 2007 suggesting that not much 
has been done about that. Are you doing something on that? And 
if you are, is it going to take another 5 years for it to 
actually get into effect?
    Ms. Marcum. We are, indeed, doing something about that. We 
have a consultant working with us now.
    The difficulty was in creating a database that had the 
names and passwords for all of the users. So we have been 
working on getting the patron database in place. That is now in 
place. The work will be done in the next 18 months, at the 
latest.
    Mr. Lungren. It will be completed within 18 months?
    Ms. Marcum. It will be completed within 18 months.
    Mr. Lungren. The second question I would have is this. And 
I take seriously what Mr. Ehlers said, about looking to the 
private sector. And I know you are smiling when I say that. But 
the fact of the matter is, I remember when I went to law 
school, we were told, as we went through the library stacks, 
that they would never be computerized because that was an 
impossible thing to do. You needed the human element there, and 
we would always have to have those little books that would 
allow us to go back in previous decisions. And now, it is one 
of the easiest things. I find that new people coming out of law 
school can't believe we used to actually go in the stacks and 
do that ourselves.
    Ms. Marcum. Right.
    Mr. Lungren. But this: When I was attorney general of 
California, we had a problem with our criminal histories, 
similar to what you are talking about, as you had some manual 
things you had to digitize, you had to bring your programs 
together and so forth. And every time, for about 3 years, I 
talked to them about bringing it up-to-date, because I think 
the criminal history filing in California gets something on the 
order of 2 million inquiries per day--they have to be 
instantaneous and accurate, because you are dealing with 
people's lives--what I was told was that we needed more money 
and more manpower. I seem to hear the same thing from you.
    But the fact of the matter is, this wasn't more money and 
manpower; it was putting the proper system in place to do that. 
And we actually got some good ideas from the private sector. If 
UPS can track something, tens of thousands, if not millions, of 
pieces per day, and does not have a loss rate of 10 percent, 
why can't you?
    Ms. Marcum. I appreciate your point. We want to reduce that 
number, and we are working on that. The one thing I think you 
should understand is we are a living, breathing library. Things 
are moving all the time. They are being checked out to Members 
of Congress or to staff.
    Mr. Lungren. You did not check to see if I have any overdue 
books, did you? I was a little concerned about that.
    I mean, I appreciate your comments. I appreciate that. I 
appreciate it is a living, working library. But I would say, in 
the private sector, we have literally millions of pieces of 
material moving all across the world, and you can, within a 
relatively short period of time, find out where that is. And I 
would bet you that, if UPS or any of the others had a loss rate 
of 10 percent, they would be out of business.
    Ms. Marcum. No doubt.
    I should mention--Mr. Ehlers asked about RFID. That is one 
of the recommendations that has been made by our working group 
looking at this situation. And there it really is a matter of 
money. An RFID tag costs between $0.50 and $0.65, based on 
exactly the type. The labels we are using now cost $0.08. It is 
a huge difference in cost. And in this case, it is a matter of 
money.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    We do have to vote. And we will be back, hopefully, within 
about 40 minutes, and we can ask some more questions we might 
have. Thank you all.
    [Recess.]
    The Chairman. I would like to call the hearing on House 
Administration back to order.
    Thank you all for your patience and waiting.
    I do have some questions from Zoe Lofgren, who is stuck in 
a markup in another committee, and so I would like to enter 
them for the record. And they will be forwarded to you, and you 
can answer them for her.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. My question is in your copyrights, you have 
to receive books; you receive two for each copyright. Do you 
keep all of those books? Do you have to keep all of those 
books? That has to overload your inventory. Is there any that 
you can just not necessarily keep?
    Ms. Marcum. We don't keep everything that comes through 
copyright. There are about 22,000 items a day that come through 
all of the processes, including copyright deposit. Of those 
22,000, we keep 10,000, approximately, each day.
    The Chairman. So you do cut them in half.
    Ms. Marcum. Yes.
    The Chairman. I don't have any other questions.
    Mr. Ehlers, do you have any questions you would like to 
ask?
    Mr. Ehlers. Yes, I do. Thank you.
    The first one, the original estimate for completing the 
baseline inventory was 8 years ago. And you are several years 
into the project, and, as the Inspector General will 
undoubtedly testify, the project is only 20 percent complete.
    How much has been budgeted over the past 3 fiscal years to 
conduct the Baseline Inventory Program of the items in the 
Library's collections, and how does that compare with the 
overall budget of the Library during that same period?
    Ms. Marcum. Mr. Ehlers, I can answer the first part. I 
don't know how it compares with the overall budget of the 
Library.
    Originally budgeted for this project was $1.1 million per 
year. With some of the difficulties we ran into in finding 
enough qualified contractors for doing the work, we have spent 
between $800,000 and $1 million each year for the last 3 years 
on the project.
    Mr. Ehlers. Okay. So you have not expended quite all of it.
    Ms. Marcum. Not quite all of the money.
    Mr. Ehlers. Has all the money been spent on conducting the 
baseline inventory, or has any of it been reallocated to other 
priorities?
    Ms. Marcum. No, it has not been reallocated. All has been 
spent on the Baseline Inventory Program. Some of that money was 
spent on what we call use-driven inventory. That is when 
materials were being moved from the Jefferson Building to Fort 
Meade, for example. Some of that money was used to inventory 
the materials that had to be moved to storage. But it has not 
been reallocated for any other purpose.
    Mr. Ehlers. Now, it is my understanding that almost all of 
that inventory work has been conducted by contractors. And you 
referred to that a moment ago, too. What kind of training do 
these contractors receive? And what is the turnover rate? Once 
you have trained them, do they stick around, or has there been 
quick a turnover rate?
    Ms. Marcum. There has been some turnover.
    Although, we have been very fortunate to work with a 
company called LSSI. It is a company in Maryland that 
specializes in library employees, so many of them do have 
library-related training. We conduct a further training program 
for them once they come to the Library to work with us. But 
most of them have a good background.
    Some of them are hired for permanent jobs in the Library, 
as you might expect, if they are doing a good job. All of these 
contractors are managed by Library staff, and we have a series 
of staff rotating through the project so that we have 
catalogers working with the baseline inventory staff to resolve 
bibliographic problems as they arise.
    Mr. Ehlers. And what about the turnover rate of the----
    Ms. Marcum. I don't know the exact turnover rate. I would 
be glad to supply that exact number for you.
    Mr. Ehlers. Okay. Thank you.
    One other question that has just been handed to me--let me 
just read it and see if I want to ask it.
    The Library's mission is to make its resources available 
and useful to the Congress and the American people and to 
sustain and preserve a universal collection of knowledge and 
creativity for future generations. That is all preamble, but 
the real question is, how do you prioritize the resources at 
the Library to ensure you meet your mission?
    And, of course, our concern is that you are behind in 
general on the inventory project to identify what you have and 
also to maintain it. How do you prioritize that? Do you need 
more money for that? If so, where can you get it besides from 
us?
    And I just wonder what you have to say about that.
    Ms. Marcum. Well, it is an important priority, but, as you 
read in our mission statement, our work is to identify the 
materials that will be useful to the Congress and the American 
people and to make them accessible--to preserve them and make 
them accessible. So our first priority has to be acquiring the 
materials in the first place, because, without them, we cannot 
provide access. So the inventory control program is extremely 
important, but it has to be fit in with other priorities.
    And perhaps it is because I am such a librarian at heart, 
but acquisitions have to come first. Nothing else happens 
without our acquiring material in the first place. But we try 
to balance all of these things, and security of the collections 
is a very big priority.
    Mr. Ehlers. Okay. My time has expired, so I will let it 
rest there.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Lungren, I know you asked a few questions, but you are 
back shortly. Anything else?
    Mr. Lungren. I hope it has not been covered while I was 
gone, but we are in the midst of the merger of the two police 
departments. And one of the concerns I know raised at the first 
hearing we had on that is that those serving the Library of 
Congress now are trained in protection of the inventory. And 
there was some question about whether you would lose some of 
that when we have the new merger with the Capitol Police, 
whether they would be trained for it.
    My question is this: To what extent, if any, is the 
problem--and I will call it a problem--of 10 percent 
unaccounted-for books part of a lack of a secure system 
utilizing your current police force for ensuring that books do 
not leave that are not properly checked out, properly 
identified and so forth? Is there any way of gauging that, 
number one?
    And number two, if there is, does that suggest increases 
in--or intensification of the training of that part of your 
staff? And if so, does that, in any way, impact the suggested 
merger of the two departments?
    Mr. Billington. I think, if you would agree, that our chief 
operating officer ought to give you an update and response--
Joanne Jenkins.
    Ms. Jenkins. Thank you for asking the question.
    We do not believe that the items are necessarily stolen. I 
think it is more a matter of being misplaced or put on the 
wrong shelf.
    The training that the Capitol Police who are currently 
assigned to the Library--takes about a week for them to go 
through the training. We have a skilled Library of Congress 
Police who conduct that training. The officers who are there 
working with us now conduct that without any problems. So the 
transition plan is in place, so that once we merge, that the 
remaining officers who would be assigned to the Library would 
go through that process.
    I think the Capitol Police's and our expectations are that 
most of the Library of Congress Police will be reassigned to 
the Library post, so that there wouldn't be any significant 
cost in that training.
    Mr. Lungren. The other question I would have is this. You 
are a unique library, no doubt about it. You are the preeminent 
library, in my judgment. But is there any way that you can 
compare and contrast your inventory controls and the apparent 
unaccounted-for 10 percent with other libraries--I realize you 
are a unique library--but other libraries, in terms of their 
inventory controls?
    Ms. Marcum. We know of no other major research library that 
has tried to do this. There are college libraries and public 
libraries that will inventory their collections because they 
are small and they can do that pretty easily. Several college 
libraries close for the summer, and the staff will go through 
and inventory the collection each summer to make sure materials 
are still there.
    We know of no very large, complicated library that has 
tried to do this. So we are unique in that way, too.
    Mr. Lungren. Thank you.
    Thank you very much, Mr. Chairman.
    The Chairman. Having no other questions, thank you for 
being here. Thanks for sharing information with us. Thank you.
    We will now call the next panel up, please.
    Good morning, and thank you for being here to testify.
    We have former Representative Bill Orton, who represented 
Utah's 3rd District from 1991 to 1997. Representative Orton has 
served on numerous task forces for the American Bar 
Association's Standing Committee on the Law Library of 
Congress.
    Tedson Meyers is the chairman of the American Bar 
Association's Standing Committee on the Law Library, as well as 
the chairman of the Arthur C. Clark Foundation. Mr. Meyers is a 
life fellow of the American Bar Foundation.
    Ann Fessenden is president of the American Association of 
Law Libraries and is a law librarian for the 8th Federal 
Circuit Court, seated in St. Louis, Missouri.
    Karl Schornagel has served as the Inspector General of the 
Library of Congress since 2001. Starting as a junior auditor 
with the Treasury Department, Mr. Schornagel has over 28 years 
of experience in evaluating Federal Government programs.
    And James R. Rettig is president of the American Library 
Association and a university librarian at the University of 
Richmond.
    Thank you, and welcome, all of you. And we look forward to 
your testimony.
    And I would like to start with the Honorable Bill Orton 
first, and ask you to keep it to 5 minutes. And anything that 
you go over we will certainly take for the record. Thank you.



STATEMENTS OF HON. WILLIAM H. ORTON, A FORMER REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF UTAH; MS. ANN FESSENDEN, CIRCUIT 
LIBRARIAN, U.S. COURTS LIBRARY 8TH CIRCUIT, PRESIDENT, AMERICAN 
    ASSOCIATION OF LAW LIBRARIES; MR. TEDSON MEYERS, ESQ., 
 CHAIRMAN, STANDING COMMITTEE ON THE LAW LIBRARY OF CONGRESS, 
AMERICAN BAR ASSOCIATION; MR. JAMES R. RETTIG, PRESIDENT-ELECT, 
    AMERICAN LIBRARY ASSOCIATION; HON. KARL W. SCHORNAGEL, 
             INSPECTOR GENERAL, LIBRARY OF CONGRESS

                   STATEMENT OF WILLIAM ORTON

    Mr. Orton. Thank you, Mr. Chairman. I appreciate the 
invitation to testify before this important oversight hearing 
of the Library of Congress.
    My testimony is based upon my personal experience, serving 
here in this body for three terms on the House Budget Committee 
and 11 years on the ABA Standing Committee for the Law Library 
of Congress. It is based upon my own observations and opinions. 
It may be consistent with, but not necessarily representative 
of, the policies or positions of the ABA and the AALL.
    I would like to begin by sharing some history and personal 
perspective over the past decade, as the Library of Congress, 
and specifically the Law Library, have struggled during a 
period of shrinking budgets and increased demand for resources.
    I preface it with my strong statement in support of Dr. 
Billington. He has served the Congress and the Nation in his 
capacity as Librarian. He has operated under impossible budget 
constraints. The Law Library has operated under even more 
unworkable budget constraints, as their collection consists of 
approximately 12 percent of the total volumes of the Library of 
Congress yet they receive annually just 2 to 3 percent of the 
total Library of Congress budget. In my opinion, it is unfair 
to criticize Dr. Billington or Dr. Medina and his staff when 
the Congress has failed to appropriate sufficient funds to 
perform the mission of the Library of Congress, let alone 
address crises when they arise.
    Perhaps more than any other section of the Library of 
Congress, the Law Library must maintain currency, or it cannot 
be relied upon as an original source for legal research. Due to 
years of budget shortages, the Law Library fell behind in 
posting the updated pages and had a backlog of between a 
million and 2 million pages. Our standing committee presented 
this issue to the appropriators in the House and Senate, who 
recognized this serious problem and appropriated a $2 million 
earmark to solve the problem. I am happy to report that, in 
recent meetings with the Law Library, they have indicated that 
they have resolved the issue and remain current in those legal 
services.
    Yet the Law Library continues to experience numerous high-
priority concerns. Within the Law Library resides a treasure 
trove of some of the rarest books in the entire Library 
collection. Yet, due to a lack of resources, the Law Library 
could not even hire a curator to pull those treasures out of 
the general collection and place them into a rare book 
collection, where they would be properly secured and 
maintained.
    If a law library is to remain current in the law, it must 
acquire, catalog, classify and shelve materials within days or 
weeks at most. However, since the Law Library is reliant upon 
the Library of Congress for cataloging, the average time 
between acquisition and shelving of materials has been years 
and, most recently, 6 to 7 months, rather than days or weeks.
    A related problem in is the rising cost of maintaining 
periodicals and journal subscriptions and the acquisition of 
new books and treatises. With the end of the Cold War, the fall 
of communism, changes in the Middle East, Asia and China, 
foreign laws have been changing at a rate never before 
experienced. The Law Library of Congress is recognized around 
the world as the repository of foreign and comparative law. 
Without resources to keep pace with these increased costs, the 
Law Library cannot continue to complete its mission.
    In keeping with its mission, shortly after the collapse of 
the former Soviet Union, Dr. Medina had a vision that gave 
birth to the Global Legal Information Network, or GLIN, which 
provides Internet access to digitized statutes and legal 
information of foreign countries. While it remains reliant upon 
congressional appropriations in the current cycle, a foundation 
has been established that I hope will be capable of self-
sustainment in the near future.
    Books or other materials in the Library that cannot be 
located are useless. They must be properly classified within 
the collection for easy retrieval. Over 5 years ago, the 
Library of Congress completed what it calls the ``K 
Classification'' of foreign law. However, the Law Library still 
has almost 750,000 volumes awaiting reclassification. It is 
imperative that funding resources be available to the Law 
Library to complete this K Classification.
    The Law Library has been under heavy budget constraints and 
has lost many FTEs. This reduction in staff, without firing 
employees, was accomplished by not replacing retiring 
employees. That has now placed the Law Library in a very 
precarious position. A very high percentage of subject and 
language specialists are near or beyond retirement age. These 
employees are highly skilled in unique areas of law and not 
easily replaced. It can take years to hire and train them. 
Without additional resources, the Library is facing a personnel 
crisis that could paralyze the mission and function of the 
Library.
    So my recommendation for a solution is that I would urge 
the committee to look at what is working within the Library of 
Congress system today. The CRS and the Copyright Office both 
have a separate line item in the legislative ops budget, yet 
they are both part of the Library of Congress system. So I 
would urge the oversight committee to consider recommending a 
line item budget for the Library of Congress, which would 
ensure that specific funding allocated to the Law Library is 
actually spent for the intended purpose.
    It would also make the Library directly accountable to 
Congress for its operations and service. And I believe an added 
benefit to be achieved is it would allow opportunities for 
future partnerships with the bar and law libraries for private 
funding of new and expanded services of the Library.
    This concludes my testimony. Again, I am grateful for the 
invitation to share my opinions and perspective. I would be 
happy, at the appropriate time, to answer any questions.
    I would ask that my full statement be included in the 
record and have the opportunity to revise and extend my 
comments.
    [The statement of Mr. Orton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. So ordered.
    Ms. Ann Fessenden.
    Ms. Fessenden. Good afternoon. I am Ann Fessenden, 
president of the American Association of Law Libraries, or 
AALL, and circuit librarian for the U.S. Court of Appeals for 
the 8th Circuit in St. Louis, Missouri.
    Thank you, Mr. Chairman, for holding this important 
oversight hearing on the Library of Congress and for inviting 
me to appear today on behalf of AALL. I am pleased to be on the 
same panel as my distinguished colleagues from the American Bar 
Association.
    Together, AALL and the ABA share the same vision and goals 
for a more robust, better-funded Law Library, one which will be 
able to meet the needs of anyone who seeks important legal 
information but cannot find it in their local law library or 
perhaps anywhere in the United States or even the world.
    The Law Library is the only comprehensive legal and 
legislative research collection in the United States and, 
therefore, serves as our Nation's de facto national law 
library. The Law Library's mission is to provide timely access 
to its collection for Members of Congress and their staffs, for 
the Congressional Research Service, the Federal courts, the 
executive branch, the legal community and the members of the 
public.
    AALL is very concerned that, historically, the Law 
Library's services, collections, facilities and digital 
projects have not been sustained with the funds or staffing 
that are necessary for it to fulfill its mission.
    The Law Library's collection of more than 2.5 million 
volumes comprises the largest and most comprehensive collection 
of legal materials in the world. Its multilingual attorneys, 
researchers and reference librarians serve well over 100,000 
users every year.
    With an exceptionally skilled staff competent in most 
foreign languages as well as international law, the Law Library 
serves a rapidly increasing number of remote users from 
throughout the world, who access its unique digital collections 
through the Law Library's Web site. Law libraries across the 
country depend on these unique collections, both print and 
digital, on a daily basis.
    My formal statement responds to several issues raised by 
your staff, but I would like to comment briefly on two of them.
    First, the substantial price increases for legal serials. 
Specialized legal serials are extremely expensive, and their 
rising costs far exceed the rate of inflation. Law libraries 
throughout the country have had to postpone the purchase of new 
titles and, in many cases, even cancel titles. This is 
certainly true in my own library, and unfortunately it is true 
of the Law Library of Congress as well. The Law Library of 
Congress must have adequate resources to address the 
inflationary increase for law journal subscriptions and the 
purchase of new treatises so that it can build and maintain its 
unique collections for the benefit of users throughout the 
Nation and the world.
    Second, the completion of the class K reclassification 
project. The K Classification is the system developed by the 
Library of Congress and followed by most law libraries 
throughout the country to categorize and organize legal 
research materials by subject. The Library of Congress 
completed the K Classification for legal materials from all 
jurisdictions in 2002. Now the Law Library must be funded to 
reclassify 680,000 volumes into the K Classification scheme.
    While this may seem, on the surface, to be an esoteric 
system, it is vital to making the rich collections of the Law 
Library available. Without reclassification, these important 
resources cannot be readily located within the Library's 
collection and, therefore, are not accessible to researchers 
and the public. It would be a sad irony if the creator of this 
almost universal system is unable to fully utilize the system 
for its own collections due to lack of funding.
    My long statement stresses the significant financial 
challenges the Law Library has faced over the past decade. We 
do not believe the Law Library can fulfill its vital mission 
under the current funding arrangement. Therefore, we recommend 
that this committee explore the possibility of a statutory 
change that would give the Law Library of Congress a line item 
in the Federal budget. This would place the Law Library on the 
same level as the Congressional Research Service and the U.S. 
Copyright Office, both of which are also part of the Library of 
Congress. It would allow the law librarian of Congress to 
manage the Law Library's budget to decide how the annual 
appropriations are best spent and, very importantly, to be 
directly accountable to the Congress. We believe an additional 
benefit would be a higher level of visibility for the Law 
Library, including with Members of Congress and their staffs.
    Law libraries of the United States and throughout the world 
look to the collections and services of the Law Library of 
Congress as a base of growing importance in completing their 
own missions. We hope that the committee will work closely with 
the House Appropriations Committee and others to investigate 
the steps needed to give the law librarian of Congress 
authority over the Law Library's annual budget.
    Thank you very much, and I would be happy to answer any 
questions.
    [The statement of Ms. Fessenden follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Meyers, we have a vote but I would like 
to try to get your testimony, And then we will have to leave 
and we would come back and hear the other two witnesses and 
have some questions for you.

                STATEMENT OF TEDSON MEYERS, ESQ.

    Mr. Meyers. Thank you, Mr. Chairman. You might get three. 
Thank you, Mr. Chairman, Mr. Ehlers, members of the committee. 
I appear on behalf of the American Bar Association at the 
request of its President, William Neukom.
    Since 1932, the ABA has had a formal relationship with the 
Library of Congress and its Law Library through our Standing 
Committee on the Law Library of Congress, which I have chaired 
for the past 7 years. The testimony at today's hearing touches 
on some of the vital functions that the Law Library provides 
and indeed must provide in support of its mission.
    Among them has been the launch of a digitized pool of 
statutes and other legal information from a growing number of 
contributing nations, embodied now in GLIN, the Global Legal 
Information Network. As such, the Law Library of Congress is 
now recognized in its 175th year as an anchor for the rule of 
law worldwide.
    That it accomplishes so much it is really remarkable. With 
over $2.5 million volumes, it is the world's largest law 
library, comprising at least 12 percent of the entire 
collection held by the Library of Congress, yet less than 3 
percent of the budget of the Library of Congress is allocated 
to the Law Library's work. There are significant consequences 
for that allocation of resources, and I believe you have heard 
some of them already.
    One-third of the Law Library's volumes have remained 
uncataloged, accessible only to select Law Library staff. Save 
for special funds made available by the Congress a few years 
ago, the Law Library would still be without adequate resources 
fully to implement the model K classification system. The Law 
Librarian of Congress, Dr. Rubens Medina, often remarks: The 
law demands an unforgiving margin of currency. Yet there have 
been moments when qualified observers feared the Law Library of 
Congress was at risk of becoming a museum. Up until recently, 
arriving documents were made available to the public only after 
a year or more rather than the standard Law Library practice of 
no more than a week.
    Other consequences, turnover in Law Library senior staff 
and their institutional knowledge has understandably led to a 
drop in efficiency as new staff is trained, and it has also 
impeded proper classification. Combined with the escalating 
cost of acquisition and preservation of new volumes and 
scholarly periodicals, it is apparent that portions of the Law 
Library's collections are slowly falling beyond its access or 
ability to protect it.
    Administrative and financial practices within the Library 
of Congress contribute to the Law Library's plight. Resource 
priority and allocation remain in the hands of senior 
administrators of the Library of Congress. Catalog delay is a 
symptom of that process. Personnel are detailed to the Law 
Library at intervals and levels decided elsewhere. This is the 
case even under the inspiring leadership of Dr. James 
Billington, who understands fully the opportunities offered by 
digitized information and is a world leader in pressing for its 
implementation. Nevertheless, the Library of Congress 
administrators are mindful of their obligations to wide and 
varied sectors of the American public for whom availability of 
the latest in other pursuits other than law, whether 
intellectual or recreational, are of supreme importance.
    Over the past 30 years, the ABA has on five occasions 
adopted formal resolutions intended to address these and 
related challenges. The first such resolution adopted by the 
ABA House of Delegates in 1979 countered an effort by the 
Library of Congress' then Director of Library Services to 
terminate the Law Library of Congress as its own department and 
make it a department under the Division of Library Services. 
The result of that effort was a letter from the Chair of the 
Oversight Committee, reminding that the status and location of 
the Law Library were matters for decision only by the United 
States Congress.
    In the early 1990s, a similar resolution was sponsored by 
former Senator Charles Mathias, then Chair of our Standing 
Committee. It proposed transition of the Law Library into a 
National Law Library to serve the Nation in the manner and 
spirit of the highly regarded National Library of Medicine.
    Those ABA positions have never been formally abandoned, but 
we are not advocating them at this time. Instead, as you heard 
before, we invite the committee to consider a solution urged by 
Senator Ted Stevens and others that the Congress create an 
independent line item for the Law Library of Congress in the 
Federal budget. That way Congress could ensure that the funding 
intended to target the chronic issues facing the Law Library 
could be used specifically for that purpose, promoting fiscal 
transparency and accountability to the Congress. Moreover, with 
clear understanding of the Federal contribution, others can be 
solicited as financial partners in the Law Library's work.
    We are respectful of the Library of Congress' historic 
opposition to this line item position. We suggest, however, 
that an emerging national objective should now weigh on the 
matter. As American corporations have discovered, the Law 
Library of Congress has become the mother lode of reliable 
information on foreign and comparative law. It is precisely 
those fields to which a growing number of lawyers, government 
and private, are turning to support American enterprise abroad, 
as well as foreign investment here at home. New business 
establishments, labor laws, transportation rules, even the 
cultural status of the rule of law--these areas are uniquely 
within the knowledge of selected Law Library staff, the staff 
whose looming succession can best be implemented with assured 
budget sums at hand. A line item for the Law Library will 
achieve that goal.
    You can also achieve stability for GLIN. An element of Dr. 
Billington's powerful initiatives for information's digital 
future, GLIN has been well understood by Members of Congress as 
a way to monitor government solutions in other lands. Targeted 
in recent years was GLIN's transition to a private foundation 
funded by its growing number of member nations. However, GLIN's 
accelerated growth has made that transition for the moment 
impractical. Therefore, contingent funding has been sought in 
order to safely cross the bridge without losing momentum. A 
body of advisers is serving under Honorable William Sessions to 
assist the new Global Legal Information Network Foundation. 
Judge Sessions is in the hearing room today and I am honored to 
serve on his team.
    We respectfully request that the ABA's full formal 
statement be made part of the hearing record. As noted, that 
statement constitutes the official view of the American Bar 
Association. I would ask, however, that unless confirmed as the 
position of the ABA, that you consider any of my responses to 
questions to go beyond that statement to be considered only my 
own views. Thank you.
    The Chairman. Thank you. We now need to take about a half 
hour recess and we will come back and hear the other two 
witnesses and ask some questions. Thank you.
    [Recess.]
    The Chairman. Mr. Rettig, you are up.

                  STATEMENT OF JAMES R. RETTIG

    Mr. Rettig. Thank you, Chairman Brady. And on behalf of the 
over 66,000 members of the American Library Association, we 
thank the committee for scheduling this hearing and for this 
opportunity to testify.
    This is an important time to review the ongoing initiatives 
at the Library. While its first function is to serve the 
Congress, it also serves as the de facto national library 
affecting libraries of all types across the country and around 
the world. The Library's tremendous collections, preservation 
projects, cataloging and bibliographic functions and its 
initiatives in moving library services into the digital world 
make it a world-class resource upon which all types of 
libraries rely in some fashion.
    As the largest and oldest library association in the word, 
ALA appreciates the complexities faced by an institution with 
limited resources as it makes decisions about digitization of 
materials and how best to manage evolving technologies' 
potential for innovation.
    In addition to cataloging and classification services that 
I will comment on today, ALA also recognizes the critical 
importance of other key Library of Congress functions, 
including the national library service for the blind and 
physically handicapped and the pending report from the 
Copyright Office's Working Group on Section 108.
    All libraries face difficult decisions as they move ever 
deeper into the digital world. At the Library of Congress, 
these decisions have a special impact on all types of libraries 
and their users. More than ever, it is essential for the 
Library of Congress to work collaboratively with the library 
community. The Library's influence is especially critical in 
the cataloging and classification arena because for more than a 
century it has provided leadership in the development of 
international standards for bibliographic access to library 
materials. The Library of Congress cataloging records comprise 
the largest single body of bibliographic records shared by 
libraries across the Nation. These records provide the means by 
which every library, whether it is a public library, school 
library, corporate library or some other, these provide users 
with tools to find resources in those libraries' collections. 
The catalog in the Library of Congress that it makes available 
to the Nation's libraries is one of its most important national 
functions. Congress funds the Library of Congress to perform 
these functions on behalf of the Nation's libraries and ALA 
support for this funding remains steadfast.
    It is unfortunate that we cannot address the final report 
of the Working Group on the Future of Bibliographic Control. I 
understand that its report will go public next week. This 
working group is expected to present findings on how 
bibliographic control and other descriptive practices can 
support the ways Library materials are managed and used in an 
evolving information and technology environment.
    Advances in search engine technology, the popularity of the 
Internet and the influx of electronic information resources 
have greatly changed the ways people seek information and the 
ways libraries do business. Inevitably on the Internet, with 
its huge and ever increasing amount of digital information, 
general search engines must be relied upon. In years to come, 
there may be far more sophisticated search engines, but we are 
certainly not there now.
    Over-reliance on these relatively young digital tools 
coupled with cut backs in cataloging services compromises 
access to vast amounts of information that has traditionally 
been cataloged. Libraries as the consumers of the Library of 
Congress' cataloging products must rely on the traditional 
cataloging services in order to meet the needs of their users. 
These cataloging consumers, including four-year and community 
colleges, public and school libraries, as well as large 
research institutions, must utilize the Library of Congress' 
cataloging in order to serve their users. It would be too 
costly and inefficient for every library to duplicate this 
cataloging.
    Hence, as the Library of Congress cuts its cataloging 
services, appearing to want to rely ever more on general search 
engines, these libraries and cataloging consumers cannot meet 
their users' needs. This disparity must be bridged by the 
continuation of cataloging services to meet the needs of the 
U.S. public. This is especially so when unilateral and sudden 
changes in cataloging practices initiated by the Library of 
Congress and others cut off access to bibliographic tools still 
needed by so many libraries.
    ALA strongly recommends that the Library of Congress return 
to its former practice of broad and meaningful consultation 
prior to making significant changes to cataloging policy. We 
also ask that the Library of Congress factor the potential 
financial impact on all types of libraries and the impact on 
library users that such changes may cause.
    ALA further recommends that there be a regular system of 
meetings of representatives of the Library of Congress, ALA and 
other bodies with relevant expertise and responsibilities, such 
as the Online Library Computer Center, the Association of 
Research Libraries, the National Library of Medicine, the 
National Agricultural Library and the Government Printing 
Office, to discuss future shared responsibilities and roles of 
these libraries in leadership and standards development for 
bibliographic control and intellectual access and in the 
creation and provision of quality bibliographic records.
    ALA and others in the Library community stand ready to work 
with the Library of Congress and with the Committee on House 
Administration and others on these important efforts. We 
recommend that the committee continue its oversight by 
addressing the above issues and by ongoing monitoring of 
unilateral cataloging changes made by the Library of Congress.
    Thank you for this opportunity to testify.
    [The statement of Mr. Rettig follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. Mr. Schornagel.

            STATEMENT OF THE HON. KARL W. SCHORNAGEL

    Mr. Schornagel. I am pleased to be able to address with you 
today the issue of the controls the Library has placed over its 
collections. The Library estimates that it possesses over 135 
million items, some dating back several centuries.
    A cornerstone of the Library's stewardship of the nations 
knowledge is its collections security program. A series of 
thefts and mutilations of collection items in the 1990s caused 
the Library to rethink its posture on collection security and 
inventory controls, two items that are closely interrelated. 
Initially the Librarian closed the stacks both to the public 
and to most of the staff. Later the Library created and 
implemented a comprehensive collections security plan.
    One of the key elements in collections security is 
maintaining an accurate and complete inventory of what is to be 
secured. Unfortunately, because of the age and vastness of the 
collections, no inventory exists. The Library recognized this 
problem and embarked on a multiyear effort to inventory its 
collections. The baseline inventory program, or BIP, this 
program began in fiscal year 2002.
    It is important to recognize that unlike Wal-Mart, which 
was designed from the ground up with inventory control in mind, 
the Library was designed with access to the collections as its 
primary purpose. The systems that the Library had used since 
its inception are designed to create cataloging information, 
not inventory records. Most items that come into the Library 
are cataloged but not all are added to the collections. The 
Library used and continues to use a variety of manual and 
automated systems to keep track of those items which are 
actually added to its inventory, but no single integrated 
approach which would combine circulation information with 
bibliographic data existed. The Library adopted the integrated 
library system, ILS, as a solution to this problem.
    In order to be useful, an automated system must be 
populated with valid data. The Library loaded all of its 
cataloging information into the ILS, thus building a database 
of everything the Library has cataloged. The next step in the 
process was the BIP. The Library's ongoing physical inventory 
of its collections will update the ILS, which will then 
maintain a permanent and dynamically updated record of each 
item in the collections. The BIP is therefore the cornerstone 
to this integrated approach. At the current time, the BIP has 
inventoried a portion, roughly 20 percent, of its target, which 
includes 17 million items from the general, law, and area 
studies collections. The Library's very special collections are 
inventoried to various degrees by other means.
    Progress on the BIP has been slow; nevertheless, I do not 
believe that this has significantly impaired the Library's 
ability to secure its collections. I base my opinion on two 
sets of facts. First, my confidence in the Library's 
comprehensive collections security program, a program 
encompassing a series of policies, procedures, the Collections 
Security Oversight Committee, exit inspections, in addition to 
special security for special collections. Second, my office has 
conducted several reviews of the subject over the years. In our 
2001 report on collection security, we found that the Library 
had taken strong action to provide an effective internal 
control structure over safeguarding library materials. Further, 
we have performed many reviews designed to verify the existence 
and condition of certain collections beginning in 1999. The 
last one we did was in 2006. No significant issues have emerged 
as a result of those reviews. Therefore, on the whole, I 
believe that the current collection security controls are 
functioning effectively.
    Finally, the Library is unique among institutions and is 
asserting in its financial statements that it does not have 
control over its collections. This is not currently a required 
assertion. Moreover, the Library's inability to completely and 
accurately account for its assets is not unique among 
institutions which have custody of heritage assets. At this 
time, we note that in 2006, the national archives and records 
administration had a material weakness in its collections 
security program. Additionally, the National Forest Service, 
which like the Library is the custodian of stewardship assets, 
only estimates its inventory.
    None of this is intended to diminish the importance for the 
accounting of one's assets. However, I believe that a balance 
must be struck between the allocation of scarce resources and 
the need for inventory data. Clearly, control over the 
collections is one of the cornerstones of the Library's 
operations. At the current time, however, I believe the overall 
system of controls is adequately designed and generally 
functions as intended.
    Thank you.
    [The statement of Mr. Schornagel follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. And thank all of you for your 
participation and your testimony.
    Mr. Ehlers, any questions.
    Mr. Ehlers. Thank you, Mr. Chairman. I apologize for the 
delay in getting back. Too many constituents with questions.
    I was struck in listening to the testimony, particularly 
from the first three witnesses, all of you seem to have the 
same refrain, that the Law Library is one of the greatest in 
the world but it doesn't have enough money. And several of you 
also suggested that this could be settled by having a line 
item. In the older days, that may have been true. I am not sure 
a line item means as much as it used to. And it has also become 
harder and harder to get money in line items. So clearly there 
is--if you want to run properly for your purposes, it is clear 
that there is going to have to be more money.
    Normally libraries never charge fees for the use of their 
services. That is a tradition of libraries. However, I would 
comment that the attorneys are--and the users of the Law 
Library are probably the only major group that actually use it 
as a resource to advance their income and their business. Would 
it be unreasonable to have some program that required 
reimbursement for use or that would at the very least solicit 
donations from the attorneys who make regular use of the Law 
Library, the Library of Congress as an additional way to 
acquire some funds for that?
    Let me just go down the line. Mr. Orton, you have been in 
the congressional arena, although you left before the really 
tight money occurred. But you lived through enough years to 
know how difficult it is to get additional money out of the 
Congress.
    Mr. Orton. You are correct. A line item in and of itself 
doesn't solve any problems. All it does is identify 
specifically where resources are allocated and then that 
provides a mechanism for accountability, which I believe is an 
important component but it is not the solution. It will require 
Congress to step forward and adequately fund the mission. If 
Congress wants the Library to properly conduct its mission and 
wants it to solve the problems that have arisen, Congress is 
going to have to provide the resources necessary to pay for the 
solutions to those problems.
    Now, if Congress is not willing to do that, then Congress 
needs to accept the results, which means the Library is--you 
can't merely cut out one or two functions of the Library. It is 
an integrated system. You can't cut out acquisitions. You can't 
cut out shelving. You can't simply cut out portions of the 
Library. It is a functioning library. If you want to turn it 
into a museum like the Smithsonian, you can do that but then 
you don't have a functioning Law Library.
    So if Congress is not willing to step up, Congress is going 
to lose its Law Library. If they are not willing--and we have 
found in the Bar Association that Congress has been very slow 
to solve many of these problems and so we have been struggling 
with ways to try to come up with additional resources. We 
believe that there is a certain level of services that Congress 
should provide, a base level of services that the Library is 
currently providing, which it should continue to provide for 
the Congress, for the public. But we believe there are other 
expanded services, and we would be happy to provide you with a 
list of additional services that we believe are critical and 
necessary which the Law Library could provide and we believe 
that the bar and other libraries around the country would be 
willing to participate in funding.
    But it is difficult, and we have been out and discussing 
this with members of the bar and saying would you be willing to 
fund these services. They have indicated yes, but there is a 
basic concern that if they start providing funding into the 
institution, there is a concern that money is fungible and as 
private money starts coming in in a period where Congress is 
tight with budget caps, does Congress then start reducing its 
money?
    That is one of the reasons that it was suggested to us that 
a line item would be inappropriate insurance to the private 
funding mechanisms, that they know how much money is coming in 
from the government, they then would be--have a greater sense 
of assurance that money that they would be putting in to fund 
these additional services would actually go for the intended 
purpose.
    I don't know that that is the only way to do it. I mean, we 
are struggling like you. We believe that funding should be 
coming in from private sources. We believe that it is there, it 
is available. We would like to work with the committee, with 
the Library to find the proper mechanisms so that private 
resources could be found to help the Library to get out of the 
problems it is in and to be able to provide these additional 
services we think are so critical.
    Mr. Ehlers. Thank you for that answer. And just very 
quickly, Ms. Fessenden, do you agree with the thrust of the 
response?
    Ms. Fessenden. Yes, I would agree that there is no 
guarantee that a line item is the solution to the problems. 
However, we are concerned that the very unique resources and 
the very unique role of the Law Library of Congress in the 
legal research and the legal community is recognized and that 
it has a stature such that it receives adequate resources to 
maintain those functions.
    I also would just like to mention the Law Library community 
very much values the services of the Library of Congress in 
cataloging, and so forth, that Mr. Rettig talked about, and we 
think that is very important and value those services as well 
and would not want to have to replicate them in the Law 
Library.
    Finally, regarding private funding, there may be instances 
when certain enhanced services would be appropriate for a fee 
for service type of approach. But in general, the American 
Association of Law Libraries feels it is very important that 
the services of our national institutions like the Law Library 
of Congress and access to legal information be available freely 
to the general public. And it isn't just attorneys that use the 
Law Library, pro se litigants may also be an important part of 
that. We certainly would not want anyone to not have access to 
legal materials that they need because of a fee for service 
situation.
    Mr. Ehlers. Let me just respond to the line item issue. A 
good way to sell the line item would be to say that we will 
make this a matching fund, that the law community would provide 
a certain amount of money and the Congress would match it and 
they both would be placed in a line item. The Library is never 
going to have the money it needs. We wouldn't have this fuss 
about the inventory if we provided them an extra 20, $30 
million a year. But there is always shortages for even the best 
things that we do in this Congress. And it is a situation you 
have to live with.
    Mr. Meyers, did you want to add anything to this?
    Mr. Meyers. Yes, thank you, Mr. Ehlers. I agree completely 
with what you have heard so far. There is value in the line 
item in several other respects. One is the transparency of 
getting a clear picture of how resources are spent. There is 
one other element, however. Increasingly as we talk about the 
Law Library--and again this is one man's opinion. Speaking to 
it among lawyers, corporate law departments, law firms--maybe 
because law has become so important in our daily lives and in 
our business lives, there is a perception about the Law Library 
that even though it is the property of the American people, 
that house is our house and it is critical that we look after 
it. So opening up discussions toward a way that lawyers, law 
firms, law departments can contribute to the cost of special 
services is a dialogue that I think we are willing to 
undertake.
    Mr. Ehlers. To use your language, if it is your house, then 
we would like to have some house payments, too. No subprime 
mortgages.
    So thank you for your comments. I think there is some room 
to work here, but it could take a good deal of time to work it 
out. Thank you very much. And thank you, Mr. Chairman, for your 
indulgence in letting me roar on for so long. Thank you.
    The Chairman. Thank you. I always appreciate being in a 
room where I understand some attorneys are going to contribute 
something, especially when it is their money. I thank all the 
witnesses, thank you for being here. Thank you for your 
participation and your testimony.
    Mr. Ehlers, do you have anything else?
    Mr. Ehlers. I think one other question has come up, but I 
think we can address it privately with Dr. Billington, which I 
will do by notes so that will be part of the record. And I do 
want to thank Mr. Schornagel for your work. We depend heavily 
on your work and we have been quoting you even as the 
Washington Post misquoted the second half. But we appreciate 
your good work and your guidance. Mr. Rettig, thank you for 
being here, too.
    The Chairman. With the exception of one sidebar, this 
hearing is adjourned.
    [Whereupon, at 1:40 p.m., the committee was adjourned.]
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
